                     AUDIT REPORT


                 Audit of NRC’s Premium Class Travel

                   OIG-08-A-16 September 12, 2008




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                                      Audit of NRC”s Premium Class Travel



EXECUTIVE SUMMARY

       BACKGROUND

       The Nuclear Regulatory Commission (NRC) is required to follow the
       Federal Travel Regulations (FTR) for all travel taken for Government
       business. The FTR, issued by the General Services Administration,
       implements statutory and Office of Management and Budget (OMB)
       requirements and policies for most Federal civilian employees and others
       authorized to travel at the Government’s expense. OMB’s policy related to
       travel is that taxpayers should not pay more than necessary to transport
       Government officials. Consistent with this principle, the FTR states that,
       with limited exceptions, travelers must use coach class accommodations
       for both domestic and international travel.

       PURPOSE

       The audit objectives were to determine if:

          •   Travel costs associated with premium air travel (i.e., per diem) are
              properly authorized, justified, and documented.

          •   Premium air travel is properly authorized, justified, and
              documented. As part of this objective, the Office of the Inspector
              General specifically assessed compliance with requirements in
              OMB Memorandum M-08-07, “Use of Premium Class Travel.”

       RESULTS IN BRIEF

       With respect to per diem associated with premium travel, NRC’s travel
       program is well managed. However, NRC needs to improve controls over
       the premium air travel process to prevent excess spending on travel and
       to properly justify the money used for premium air transportation.

       RECOMMENDATIONS

       This report makes recommendations to improve controls over the use of
       premium travel. A consolidated list of these recommendations appears at
       the end of Section III of this report.

       AGENCY COMMENTS

       At a September 3, 2008, exit conference, agency senior executives
       provided suggested revisions to the discussion draft report. This final
       report incorporates revisions made, where appropriate, as a result of the
       agency’s suggestions.


                                      i
                                   Audit of NRC”s Premium Class Travel




[Page intentionally left blank.]




               ii
                                              Audit of NRC”s Premium Class Travel



ABBREVIATIONS AND ACRONYMS

       DOI/NBC     Department of the Interior/National Business Center

       FTR         Federal Travel Regulations

       GAO         Government Accountability Office

       MD          Management Directive

       NRC         Nuclear Regulatory Commission

       OCFO        Office of the Chief Financial Officer

       OIG         Office of the Inspector General

       OMB         Office of Management and Budget




                            iii
                                   Audit of NRC”s Premium Class Travel




[Page intentionally left blank.]




               iv
                                                                                Audit of NRC”s Premium Class Travel



TABLE OF CONTENTS


    EXECUTIVE SUMMARY ................................................................................... i

    ABBREVIATIONS AND ACRONYMS ..............................................................iii

    I.     BACKGROUND........................................................................................ 1

    II.    PURPOSE ................................................................................................ 3

    III.   FINDINGS ................................................................................................ 4

           A.     TRAVEL COSTS ASSOCIATED WITH PREMIUM TRAVEL ............................ 4
           B.     PREMIUM AIR TRAVEL ......................................................................... 6

    IV.    AGENCY COMMENTS........................................................................... 14


    APPENDICES

    A.       SCOPE AND METHODOLOGY .......................................................... 16

    B.       FEDERAL TRAVEL REGULATIONS................................................... 18

    C.       OMB MEMORANDUM M-08-07 .......................................................... 20

    D.       NRC’S DEFINITION OF REST PERIOD ............................................. 22

    E.       SPECIFIC AUTHORIZATION FORM................................................... 24




                                                         v
                             Audit of NRC”s Premium Class Travel




[Page intentionally left blank.]




           vi
                                                                                      Audit of NRC”s Premium Class Travel



I.          BACKGROUND

                     Federal Travel Regulations

                     The Nuclear Regulatory Commission (NRC) is required to follow the
                     Federal Travel Regulations (FTR) for all travel taken for Government
                     business. The FTR, issued by the General Services Administration,
                     implements statutory and Office of Management and Budget (OMB)
                     requirements and policies for most Federal civilian employees and others
                     authorized to travel at the Government’s expense. OMB’s policy related to
                     travel is that taxpayers should not pay more than necessary to transport
                     Government officials. Consistent with this principle, the FTR states that,
                     with limited exceptions, travelers must use coach class accommodations
                     for both domestic and international travel.

                     The FTR outlines when greater than coach class accommodations
                     (i.e., premium travel1) can be used. Premium travel has two main
                     categories: first class travel and other greater than coach travel
                     (e.g., business class, economy plus). There are four approved reasons
                     for employees to use first class travel and nine reasons for use of other
                     types of premium travel (see Appendix B for a listing of these reasons).

                     GAO Report

                     A September 2007 Government Accountability Office (GAO) audit report,
                     “Internal Control Weaknesses Governmentwide Led to Improper and
                     Abusive Use of Premium Class Travel,” cited numerous breakdowns in
                     key internal controls, a weak control environment, and ineffective
                     oversight Governmentwide that led to vast unauthorized and improper use
                     of premium class travel. GAO initiated this Governmentwide audit
                     because of a March 2006 audit of the Department of State’s travel
                     program which noted that although premium class travel was used on only
                     19 percent of trips, it accounted for nearly 49 percent of all travel costs. In
                     the September 2007 audit report, GAO estimated that approximately
                     67 percent of all premium class travel taken by Government employees
                     was not properly authorized, justified, or both – costing taxpayers at least
                     $146 million in excess travel expenses.

                     OMB Memorandum

                     In response to the September 2007 GAO report, OMB issued
                     Memorandum M-08-07, “Use of Premium Class Travel” (OMB M-08-07),
                     to all department and agency heads as a reminder of the premium class
                     travel requirements and to reinforce the importance of having clearly

1
     For the remainder of this report, all greater than coach class travel will be referred to as premium travel.


                                                               1
                                                                         Audit of NRC”s Premium Class Travel



                defined internal controls for using such travel (see Appendix C for a copy
                of the memorandum). OMB required that all agency heads (1) implement
                six policies over the premium travel process and (2) respond in writing, no
                later than March 31, 2008, to illustrate that they had addressed the six
                policy areas.

                NRC Travel Program

                The Office of the Chief Financial Officer (OCFO) manages NRC’s travel
                program, which entails authorizing funds to pay for all flights, approving
                expenses incurred on travel, and reimbursing employees for authorized
                travel expenses. In January 2008, OCFO outsourced the review,
                approval, and reimbursement of travel expenses to the Department of
                Interior, National Business Center (DOI/NBC). As part of this
                arrangement, DOI/NBC is responsible for checking travel vouchers for
                completeness and reimbursing employees for funds claimed on travel
                vouchers.

                As another recent initiative, NRC is implementing an electronic travel
                process known as eTravel.2 In March 2008, NRC began piloting the
                eTravel process for selected users to assess the system and ensure that
                the eTravel process will meet user needs. NRC anticipates fully
                implementing eTravel by January 2009. The eTravel program will allow
                the agency to process premium travel requests and premium travel
                reimbursements electronically; therefore, it is important that NRC address
                issues related to processing premium travel before full implementation of
                the eTravel program.

                Between October 1, 2006, and March 31, 2008, NRC officials reported
                spending approximately $7.76 million on all air travel expenses. Premium
                air travel composed 7 percent (approximately $550,000) of this total cost.
                During this period, NRC employees took 77 premium air travel trips.




2
 E-Gov Travel (eTravel) is a Web-based Governmentwide service to manage Federal Government travel from
beginning (authorization) to end (payment).


                                                     2
                                                        Audit of NRC”s Premium Class Travel



II.   PURPOSE

         The audit objectives were to determine if:

            •   Travel costs associated with premium air travel (i.e., per diem) are
                properly authorized, justified, and documented.

            •   Premium air travel is properly authorized, justified, and
                documented. As part of this objective, the Office of the Inspector
                General (OIG) specifically assessed compliance with requirements
                in OMB Memorandum M-08-07.

         Appendix A contains information on the audit scope and methodology.




                                       3
                                                            Audit of NRC”s Premium Class Travel



III.    FINDINGS

              With respect to per diem associated with premium travel, NRC’s travel
              program is well managed. However, NRC needs to improve controls over
              the premium air travel process to prevent excess spending on travel and
              to properly justify the money used for premium air transportation.


       A. Travel Costs Associated with Premium Travel

              Travel costs associated with premium travel were generally authorized,
              justified, and documented in accordance with Federal requirements.

              Federal Travel Regulation Requirements

              The FTR prescribes mandatory regulations and controls for travel by
              Federal civilian employees and others authorized to travel at Government
              expense. Specifically, employees must use established per diem rates for
              hotels unless they have prior approval from agency management to
              exceed them. For international travel, these per diem rates are set by the
              Department of State. Employees must follow these rates, unless
              authorized by agency officials to exceed them. A traveler may obtain
              actual expense reimbursement if a request for authorization is made and
              granted in advance of the travel. Additionally, approval of actual cost may
              be granted after the fact when properly supported in accordance with
              agency policy and authorized by a designated official. Regarding travel
              reimbursement, the FTR states that all travel claims must be reimbursed
              to the traveler within 30 calendar days after submission to the agency’s
              designated approving office.

              Further, NRC Management Directive (MD) 14.1, “Official Temporary Duty
              Travel,” provides NRC travelers with implementation guidance for official
              Government travel and the means to properly claim reimbursement for
              expenses.

              Associated Travel Costs Generally in Compliance

              NRC generally complied with FTR per diem requirements for trips
              involving premium travel during the time period reviewed. Additionally,
              during this time period, NRC made significant improvements in processing
              travel vouchers. Auditors reviewed each of the 77 premium travel trips,
              including associated travel costs, that NRC staff took between
              October 1, 2006, and March 31, 2008. Each of these trips included at
              least one segment (i.e., part of route) of premium travel at an additional
              cost to NRC.



                                            4
                                             Audit of NRC”s Premium Class Travel



Auditors noted that after OCFO outsourced travel voucher processing to
DOI/NBC in January 2008, there were improvements in the process.
Specifically, travel voucher processing time improved subsequent to the
outsourcing. Prior to the change, OCFO averaged 15 days to reimburse
employees for travel expenses. In a few instances, OCFO took longer
than 30 days to reimburse employees. However, since DOI/NBC took
over the processing and payment of travel vouchers, the average
processing time has shortened to 7 days.




                             5
                                                                                Audit of NRC”s Premium Class Travel



        B. Premium Air Travel

                    Despite Federal and agency policies requiring that premium air travel be
                    used only when warranted, approximately 50 percent of the premium air
                    travel taken by NRC employees, between October 1, 2006, and
                    March 31, 2008, was inappropriately authorized, justified, and/or
                    documented. Additionally, NRC did not fully comply with OMB M-08-07
                    with regard to the definition of a rest period (see Appendix D for NRC’s
                    definition of a rest period). Further, NRC’s premium travel approval
                    process for the Chairman’s travel differs from other Federal commissions.
                    These problems occurred because NRC premium air travel guidance is
                    inconsistent, unclear, and misleading to employees. The absence of
                    proper controls over the premium air travel program resulted in NRC
                    overspending approximately $104,000 on unjustified premium travel
                    during the 18-month period.

                    Relevant Federal and Agency Requirements

                    OIG identified Federal and agency policies, described below, that address
                    requirements for use of premium air travel and require the proper
                    authorization, justification, and documentation of decisions to use this
                    class of travel.

                    Federal Travel Regulations

                    The FTR governs the use of premium travel. This guidance requires that
                    travelers fly coach for official domestic and international air travel, except
                    when a traveler meets one or more prescribed exceptions and the agency
                    authorizes the use of premium travel. As noted in Appendix B, there are
                    four exceptions when a traveler can use first class travel and nine
                    exceptions for all other types of premium travel. OCFO officials stated
                    that during the period reviewed, the only two reasons for using premium
                    class travel were: (1) to accommodate a disability, in which case a medical
                    waiver is obtained,3 and (2) when a traveler journeys for at least 14 hours
                    without a rest period upon arrival or en route.

                    MD 14.1, “Official Temporary Duty Travel”

                    MD 14.1 contains NRC’s internal policies and procedures that clarify the
                    premium class travel provisions of the FTR. NRC’s policy is to authorize
                    premium class travel in very specific, limited circumstances. As a general
                    rule, coach class accommodations shall be used for all modes of
                    passenger travel.


3
    NRC MD 14.1 requires that written statements for medical waivers be submitted each fiscal year.


                                                           6
                                                 Audit of NRC”s Premium Class Travel



NRC travelers must obtain written justification for premium class travel in
advance of travel. Furthermore, MD 14.1, Exhibit 4.2, provides a required
format to obtain approval for premium class transportation, known as
“specific authorization” (see Appendix E for a copy of this form). In
addition, only the Chairman, Executive Director for Operations, and
Inspector General are authorized to approve the use of premium travel for
employees that report to them. MD 14.1 also states that the Chairman
may delegate his signature authority within the Office of the Chairman to
authorize premium class transportation. Per MD 14.1, the Chairman may
also authorize and approve requests for premium class travel for himself.

GAO Standards for Internal Control

GAO’s publication, “Standards for Internal Control in the Federal
Government,” states that internal controls and all transactions need to be
clearly documented and the documentation should be readily available for
examination. Additionally the GAO standards state that documentation
should appear in management directives, and administrative policies and
records should be properly managed and maintained.

OIG notes appropriate documentation of transactions is useful in
evaluating or analyzing operations. When documentation of transactions
is complete and accurate, it facilitates the tracing of transactions from
travel authorization, through the travel voucher process, to the completed
reimbursement to the traveler. Therefore, travel vouchers should include
enough information for a clear audit trail.

OMB M-08-07

In January 2008, OMB issued Memorandum M-08-07, “Use of Premium
Class Travel,” to department and agency heads both as a reminder of
premium class travel requirements and to reinforce the importance of
establishing clearly defined internal controls regarding the use of premium
class accommodations. OMB required that agencies implement the
following premium class travel policies immediately:

   •   Require that premium class travel requests for all agency
       personnel, including senior-level executives, be approved by an
       individual at least at the same level as the traveler, or by an office
       designated to approve premium class travel.

   •   Develop and issue internal guidance that explains when mission
       criteria and intent call for premium class accommodations.

   •   Define what constitutes a rest period.




                               7
                                                                              Audit of NRC”s Premium Class Travel



                      •   Require annual certifications of a disability, unless such disability is
                          lifelong.

                      •   Restrict premium class travel for both temporary duty and
                          permanent change of station travel (relocations) when the
                          employee is not required to report to duty the following day.

                      •   Prohibit blanket travel authorizations for premium class travel,
                          unless the traveler has a certification of disability.

                 Premium Travel Inappropriately Authorized, Justified, and/or
                 Documented

                 Despite requirements, approximately one half of the premium air travel
                 trips taken were inappropriately authorized, justified, and/or documented.
                 OIG reviewed all travel packages associated with the 77 premium travel
                 trips taken between October 1, 2006, and March 31, 2008. Travel
                 packages – which included travel authorization request forms, hotel
                 receipts, airline itineraries, and detailed lists of expenses – were reviewed
                 to determine if:

                      •   Appropriate approval was granted.
                      •   Travel met FTR requirements.
                      •   Supporting documentation was included.

                 OIG determined that at least one problem existed with authorization,
                 justification, or documentation in approximately 50 percent of the
                 77 premium travel trips reviewed.

                 Authorization

                 OIG considered a premium travel request properly authorized if it included
                 administrative approval by the Chairman4 or the Executive Director for
                 Operations, based on the traveler’s office reporting structure. Such
                 approval is conveyed by signature on the travel authorization form or on
                 an attached signed memorandum approving premium travel (i.e., specific
                 authorization). OIG reviewed the 77 travel packages requiring Chairman
                 or the Executive Director for Operations signature and determined that
                 34 trips did not contain the appropriate signatures and therefore were not
                 properly authorized.




4
  MD 14.1 states that the Chairman can delegate, within his office, his authority to approve premium travel. The
Chairman has delegated this authority to three members of his staff. OIG considered these signatures as properly
authorized.


                                                        8
                                                               Audit of NRC”s Premium Class Travel



              Justification

              A premium travel trip was determined to be justified if all premium portions
              of the travel met FTR requirements. While the FTR describes
              13 exceptions allowing use of premium travel, NRC used only 2 types of
              exceptions during the period reviewed: a medical waiver and flights longer
              than 14 hours.

              As shown in Table 1, all 34 premium travel trips involving medical waivers
              were properly justified, while 29 of the 43 trips involving the 14-hour rule
              did not fully meet FTR requirements.


Table 1. Breakdown of Premium Air Trips

                       Medical Waiver           14-Hour Rule            Total
Justified              34                       14                      48
Unjustified            0                        29                      29
Total                  34                       43                      77

              The FTR states that premium class travel can be used when:

                     “…the origin and/or destination are outside the continental United
                     States, and the scheduled flight time, including stopovers and
                     change of planes, is in excess of 14 hours. (In this instance you
                     will not be eligible for a rest stop en route or a rest period upon
                     arrival at your duty site.)” (Emphasis added.)

              The FTR further states that a rest period should not exceed 24 hours.
              While all premium travel trips taken using the 14-hour rule met the travel
              length requirements, the 29 unjustified trips included adequate rest
              periods upon arrival; therefore, the employees were not justified in using
              premium travel.

              Documentation

              OIG considered a premium travel request properly documented if it
              included a written explanation as to why the traveler requested premium
              travel. This explanation should be noted on the travel authorization form
              or on an attached specific authorization form. Of the 77 premium travel
              trips taken, 24 trips were not documented properly. Specifically, there was
              no stated reason for the use of premium travel.




                                            9
                                                                           Audit of NRC”s Premium Class Travel



                 Furthermore, OIG reviewed travel voucher packages for completeness of
                 information. Of the 77 travel voucher packages reviewed, 28 were
                 missing information. All but one of these travel voucher packages were
                 missing itineraries. While OCFO was able to provide information on the
                 flights taken on these premium trips, this information was not included in
                 the travel package records.

                 Compliance with OMB Memorandum

                 NRC generally complied with OMB M-08-07 in that the agency responded
                 to the March 31, 2008, deadline5 and the response addressed all six
                 policy areas. For many of the areas that OMB requested agencies to
                 address, NRC already had existing guidance. However, OIG concluded
                 that NRC’s definition of a rest period is not complete. Specifically, NRC
                 needs to clearly define how a rest period impacts the use of premium
                 travel.

                 OIG also determined that NRC’s policy of permitting the Chairman to self-
                 authorize premium travel is at variance with OMB M-08-07’s direction that
                 requests must be approved by someone at the same level or by an office
                 designated to approve premium travel. OIG contacted five Government
                 agencies with Commission structure similar to NRC’s to determine their
                 processes for approving premium travel for their Chairmen. OIG found
                 that none permitted Chairman self-approval, as allowed by NRC.


Table 2. Premium Travel Approval for Chairmen of Commission-Based Agencies

                            Securities    Federal   Consumer
                  Federal                                        Federal
                                and       Energy     Product
              Communications                                      Trade
                             Exchange Regulatory      Safety
                Commission                                    Commission
                           Commission Commission Commission
Approves Managing Director Executive   Executive  Acting      Executive
Chairman (e.g., Executive  Director    Director   Chairman in Director
Premium Director)                                 conjunction
Travel                                            with the
                                                  General
                                                  Counsel

                 As noted in Table 2, all five agencies have a designated office that
                 approves the Chairman’s premium travel. Four of the five agencies
                 designate the Executive Director to approve the Chairman’s travel. For



5
 NRC was granted a 1-week extension to the deadline and NRC submitted its response before this extension
expired.


                                                      10
                                               Audit of NRC”s Premium Class Travel



the other agency, the Acting Chairman, in conjunction with the General
Counsel, approves premium travel for the Chairman. OIG’s benchmarking
review shows that agencies with a similar structure to NRC do not allow
self-authorization.

OIG met with the GAO auditors who conducted the audit that identified
Governmentwide weaknesses in internal controls over the use of premium
class travel. Based on this meeting, OIG learned that, as a general rule,
GAO believes self-authorization is not a good practice and that senior
executives should not approve their own travel. It is important that
someone independent review travel requests for agency heads prior to the
travel and, further, it is important that this process be documented in the
agency policies.

Guidance and Controls Lacking Over Premium Travel

NRC’s failure to comply with premium class travel restrictions occurred
because of incorrect agency guidance and lack of controls in the travel
approval process.

Inappropriate authorizations of premium travel occurred because NRC
guidance concerning authorizations is inconsistent, unclear, and
misleading and because OCFO did not require the necessary signatures
for some premium travel trips. MD 14.1 contains conflicting information
regarding who can approve premium class travel. While one section
states that the Chairman, Executive Director for Operations, and Inspector
General are responsible for approving premium travel, another section
states that Office Directors, Regional Administrators, and the Chief
Financial Officer can approve premium class travel. OCFO officials
clarified to OIG that only the Chairman, Executive Director for Operations,
and Inspector General should approve requests for premium travel.
An OCFO official stated the office is aware of these inconsistencies in
MD 14.1 and is working to correct the language. OCFO also issued a
yellow announcement on March 7, 2008, to all employees reminding them
of the rules of premium travel and identifying the approving officials for
premium travel. In addition, OCFO staff acknowledged that they did not
require Chairman or Executive Director for Operations signatures for
premium travel trips that met the 14-hour rule, which also contributed to
the problems OIG identified.

Improperly justified premium travel occurred because of a lack of sufficient
internal controls over the premium travel process. According to OCFO
management, the traveler’s supervisor is responsible for reviewing the
travel request and determining if premium travel is justified. However,
these first-line supervisors are not trained on FTR and NRC requirements
for using premium travel. Additionally, OCFO staff who process premium



                              11
                                                Audit of NRC”s Premium Class Travel



travel requests rely on first-line supervisors to determine whether a rest
period was taken upon arrival at a travel destination or upon return.
OCFO staff do not have access to traveler schedules and are unable to
make these determinations; therefore, they do not provide a second level
of scrutiny over appropriate use of premium travel, e.g., use of a rest
period. However, OCFO staff are required to ensure that flights meet the
14-hour requirement. OCFO management acknowledges that the use of a
rest period was not factored into the decision to allow employees to take
premium travel.

Inconsistencies in travel authorization requests and travel voucher
packages occur because OCFO staff do not require consistent
documentation. OCFO staff stated that the office did not require specific
authorizations (i.e., an attached signed memorandum approving the use of
premium travel, such as the one shown in Appendix E of this report) to be
attached to the travel authorizations.

OIG determined that during the 18-month review period, NRC spent
approximately $550,000 on premium air travel, $104,000 of which was not
justified. With improved controls over the process, NRC would have been
able to put these funds to better use. Furthermore, without appropriate
documentation for decisions regarding premium travel, NRC is unable, in
many instances, to explain why premium travel was needed. As NRC
transitions to eTravel, it is important that proper controls and guidance be
implemented to prevent these errors in the future.

Recommendations

The Office of the Inspector General recommends that the Chief Financial
Officer:

      1. Update Management Directive 14.1 to:

             •   Clearly identify premium travel authorizing officials.

             •   Clarify “Delegation of Authority” and require this to be in
                 written form.

             •   Clarify the 14-hour rule, specifically the rest period.

      2. Issue interim guidance to accomplish the intent of
         Recommendation 1, pending revision of Management
         Directive 14.1.




                              12
                                        Audit of NRC”s Premium Class Travel



3. Provide annual training on premium travel requirements to
   travelers and supervisors involved in premium travel. This
   training should include:

      •   Who can authorize.

      •   What makes it justified.

      •   What documentation is required.

4. Develop and implement internal controls to ensure that proper
   authorization, justification, and documentation exist before
   issuing premium travel air tickets.

5. Develop and implement internal controls to ensure that travel
   voucher packages include itineraries.

6. As NRC transitions to eTravel, develop controls that:

      •   Require premium travel to be authorized by the
          appropriate officials.

      •   Ensure premium travel justification fully meets FTR
          criteria.

      •   Require travel authorization forms to state reasons why
          premium travel is required.

7. Designate the Executive Director for Operations as the
   approving official for all Chairman requests for premium travel.




                       13
                                                     Audit of NRC”s Premium Class Travel



IV.   AGENCY COMMENTS

         At an exit conference on September 3, 2008, NRC officials agreed with
         the report contents and provided editorial suggestions, which OIG
         incorporated as appropriate.




                                     14
                                   Audit of NRC”s Premium Class Travel




[Page intentionally left blank.]




              15
                                                     Audit of NRC”s Premium Class Travel



                                                                           Appendix A
SCOPE AND METHODOLOGY

       Auditors evaluated NRC’s premium travel program to determine if travel
       packages contained proper authorization, justification, and supporting
       documentation to validate the use of premium travel. In addition, auditors
       reviewed the associated per diem of premium travel and related issues
       including timely payment upon completion of the travel voucher.

       The audit team reviewed NRC compliance with relevant criteria, including
       the FTR; NRC MD 14.1, “Official Temporary Duty Travel;” and OMB
       M-08-07, “Use of Premium Class Travel.” Other criteria reviewed related
       to the internal controls over premium travel include GAO Report 07-1268,
       “Internal Control Weaknesses Governmentwide Led to Improper and
       Abusive Use of Premium Class Travel,” dated September 2007; GAO
       Standards for Internal Control; Department of State prescribed per diem
       rate schedule; and NRC Yellow Announcement 08-033, “Reminder
       Regarding Use Of Premium Class Airline Travel.”

       At NRC Headquarters in Rockville, MD, auditors interviewed OCFO staff
       and management from Carlson Wagonlit Travel, the agency’s travel
       services contractor, to gain an understanding of their roles and
       responsibilities as they pertain to the issuance of premium class travel
       accommodations. Auditors also interviewed the project manager for
       NRC’s eTravel system to assess how internal controls have and could be
       incorporated into eTravel. Additionally, auditors traveled to Denver, CO,
       to interview DOI/NBC staff who process travel vouchers.

       OIG reviewed 100 percent of premium travel taken between
       October 1, 2006, and March 31, 2008, and identified all trips containing at
       least one segment of premium class travel. OIG excluded from the review
       premium class travel that represented no additional cost to the
       Government. Auditors analyzed the remaining trips and determined if:

          •   Proper authorization existed.

          •   The trip met the FTR criteria.

          •   The travel package contained the proper documentation.

       Auditors then determined the excess cost borne by the Government for
       any travel found not justified in accordance with one of the 13 reasons
       stated in the FTR as justification for premium travel.




                                     16
                                             Audit of NRC”s Premium Class Travel



This work was conducted from March 2008 through August 2008 in
accordance with generally accepted Government auditing standards.
Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. The work was conducted by
Steven Zane, Team Leader; Kathleen Stetson, Audit Manager;
Rebecca Underhill, Senior Auditor; Yvette Mabry, Senior Auditor; and
Joseph Foster, Management Analyst Intern.




                            17
                                                       Audit of NRC”s Premium Class Travel



                                                                             Appendix B
FEDERAL TRAVEL REGULATIONS

        The following is taken directly from FTR, Part 301-10, “Transportation
        Expenses.”

        First Class Travel

        You may use first-class airline accommodations only when your agency
        specifically authorizes/approves your use of such accommodations, for the
        reasons given under paragraphs (a) through (d) of this section [of FTR].

        (a)   No coach or business-class accommodations are reasonably
              available. “Reasonably available” means available on an airline that
              is scheduled to leave within 24 hours of your proposed departure
              time, or scheduled to arrive within 24 hours of your proposed arrival
              time.

        (b)   When use of first-class is necessary to accommodate a disability or
              other special need. A disability must be substantiated annually in a
              written statement by a competent medical authority. A special need
              must be substantiated in writing according to your agency’s
              procedures. If you are authorized under §301-13.3(a) of this chapter
              [of FTR] to have an attendant accompany you, your agency also
              may authorize the attendant to use first-class accommodations if you
              require the attendant’s services en route.

        (c)   When exceptional security circumstances require first-class travel.
              Exceptional security circumstances are determined by your agency
              and include, but are not limited to:

                 (1)   Use of other than first-class accommodations would
                       endanger your life or Government property;

                 (2)   You are an agent on protective detail and you are
                       accompanying an individual authorized to use first-class
                       accommodations; or

                 (3)   You are a courier or control officer accompanying controlled
                       pouches or packages.

        (d)   When required because of agency mission.




                                      18
                                                 Audit of NRC”s Premium Class Travel



Other Premium Class Travel

[You may use business-class airline accommodations] only when your
agency specifically authorizes/approves your use of such
accommodations, for the reasons given under paragraphs (a) through (i)
of this section [of FTR].

(a)   Regularly scheduled flights between origin/destination points
      (including connecting points) provide only first-class and business-
      class accommodations and you certify such on your voucher.

(b)   No space is available in coach-class accommodations in time to
      accomplish the mission, which is urgent and cannot be postponed.

(c)   When use of business-class accommodations is necessary to
      accommodate your disability or other special need. Disability must
      be substantiated in writing by a competent medical authority.
      Special need must be substantiated in writing according to your
      agency’s procedures. If you are authorized under §301-13.3(a) of
      this chapter [of FTR] to have an attendant accompany you, your
      agency also may authorize the attendant to use business-class
      accommodations if you require the attendant’s services en route.

(d)   Security purposes or exceptional circumstances as determined by
      your agency make the use of business-class accommodations
      essential to the successful performance of the agency’s mission.

(e)   Coach-class accommodations on an authorized/approved foreign air
      carrier do not provide adequate sanitation or health standards.

(f)   The use results in an overall cost savings to the Government by
      avoiding additional subsistence costs, overtime, or lost productive
      time while awaiting coach-class accommodations.

(g)   Your transportation costs are paid in full through agency acceptance
      of payment from a non-federal source in accordance with Chapter
      304 [of FTR].

(h)   Where the origin and/or destination are outside the continental
      United States, and the scheduled flight time, including stopovers and
      change of planes, is in excess of 14 hours. (In this instance you will
      not be eligible for a rest stop en route or a rest period upon arrival at
      your duty site.).

(i)   When required because of agency mission.




                               19
                              Audit of NRC”s Premium Class Travel



                                                    Appendix C
OMB MEMORANDUM M-08-07




                         20
     Audit of NRC”s Premium Class Travel




21
                                                         Audit of NRC”s Premium Class Travel



                                                                               Appendix D
NRC’S DEFINITION OF REST PERIOD

        MD 14.1, Section 4.4.2, defines a rest period as follows:

        The NRC may authorize a rest period of up to 24 hours when the following
        four conditions are met:

        (1)   Employees travel directly between authorized origin and destination
              points that are separated by several time zones

        (2)   Either the origin or destination point is outside CONUS

        (3)   Employees are traveling by less than premium class
              accommodations

        (4)   The scheduled flight time, including stopovers, exceeds 14 hours

        The rest stop may be authorized for any intermediate point, including
        points within CONUS, provided the point is midway in the journey or as
        near to midway as requirements for use of U.S. flag air carriers and carrier
        scheduling permit.

        A rest stop will not be authorized when an employee, for personal
        convenience, elects to travel by an indirect route resulting in excess travel
        time.

        The per diem rate for the rest stop will be the rate applicable for the rest
        stop location.

        When a rest stop is not authorized or cannot be scheduled due to airline
        schedules, the traveler should plan his or her trip to allow sufficient time to
        rest before reporting to duty.




                                       22
                                   Audit of NRC”s Premium Class Travel




[Page intentionally left blank.]




              23
                               Audit of NRC”s Premium Class Travel



                                                     Appendix E
SPECIFIC AUTHORIZATION FORM




                          24
